                                                                             Report No. DODIG-2014-057


              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              APRIL 9, 2014




                     Improvements to Controls Over
                     Cash Are Needed at Army Disbursing
                     Stations in Kuwait and Saudi Arabia




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Improvements to Controls Over Cash Are Needed at Army
                                       Disbursing Stations in Kuwait and Saudi Arabia



April 9, 2014                                          Findings Continued

Objective                                              These conditions occurred because the DOs and DDOs were not
                                                       aware of these requirements and were not properly trained to
We determined whether the controls at the              perform these duties. As a result of these inadequate controls
Army disbursing stations in Kuwait (Disbursing         over cash, the Army increases its risk of loss because of errors,
Station Symbol Numbers [DSSNs] 8550 and                theft, and fraud.
8748) and Saudi  Arabia (DSSN 5588) were
adequate to safeguard, account for, document,          In addition, the DO for DSSN 8550 did not report a loss of funds
and report cash held at those sites. In addition,      of about $6.5 million when the Al-Warka bank in Baghdad, Iraq,
we evaluated whether the U.S. Army Financial           failed. This occurred because the DO believed that the Army
Management Command (USAFMCOM) effectively              would recover these funds in the future. As a result, the risk
implemented technical oversight and provided           of losing the remaining balance of $5.4 million has increased.
assistance to the Army disbursing station
in Saudi Arabia. The three disbursing stations we      Recommendations
reviewed had $4.9  million in cash on hand at the      Among other recommendations, we recommend the Army
time of our cash counts.                               conduct staff assistance visits when a new DO or DDO is
                                                       appointed to the Army disbursing stations in Kuwait. In
                                                       addition, we recommend that the Army revise the training
Findings                                               curriculum for DOs and DDOs and certify that DOs and DDOs
Controls at Kuwait (DSSN 8550) and Saudi               have taken this training. We also recommend that the DO for
Arabia (DSSN  5588) disbursing stations were not       DSSN  8550 report a loss of funds of $5.4 million, conduct an
adequate to safeguard, account for, document,          investigation and prepare a report, inform senior officials at
and report cash. For example, we found that            the Departments of State and Treasury of the loss of funds,
the disbursing officer (DO) and the deputy             and request assistance from these officials in recovering the
disbursing officer (DDO) for DSSN  8550 did not        lost funds. Furthermore, we recommend that senior officials
segregate confiscated funds from public funds,         review the actions of the DOs for DSSN 8550 and DSSN  5588
accurately prepare a shipment of funds form,           regarding the deficiencies identified in this report and take
timely prepare an agent’s accountability form,         appropriate management action, including holding the necessary
properly account for funds in transit, and             officials accountable.
retain quarterly cash verification reports. The
DO for DSSN 5588 did not properly transfer             Management Comments and
accountability from the predecessor DO to
                                                       Our Response
himself, properly appoint a DDO, timely reconcile
                                                       Management comments adequately addressed 26 of 33
the Limited Depository Account, properly
                                                       recommendations. We request the Army provide comments in
report cash with agents, and require agents to
                                                       response to the report. Please see the recommendations table
prepare daily accountability summaries.
                                                       on the back of this page.

Visit us on the web at www.dodig.mil


                                                                   Report No. DODIG-2014-057 (Project No. D2011-D000FP-0260.001)│ i
    Recommendations Table
                                                            Recommendations             No Additional
                      Management                            Requiring Comment         Comments Required
     Deputy Assistant Secretary of the Army                                          A.1
     (Financial Operations)
                                                                                     A.2.a.(1), A.2.a.(2),
                                                                                     A.2.a.(3), A.2.a.(4),
                                                                                     A.2.a.(5), A.2.a.(6),
     Director, U.S. Army Financial                                                   A.2.a.(7), A.2.a.(8),
     Management Command                                                              A.2.a.(9), A.2.a.(10),
                                                                                     A.2.a.(11), A.2.a.(12),
                                                                                     A.2.a.(13), and A.2.b
     Commander, 1st Sustainment Command                  B.1.b                       B.1.a
     Director, 18th Financial Management Center                                      A.3
     Comptroller, U.S. Military Training Mission to                                  A.4
     Saudi Arabia
     Disbursing Officer, Disbursing Station Symbol                                   A.6.a, and A.6.b
     Number 5588
                                                         B.2.a, B.2.b, B.2.c,
     Disbursing Officer, Disbursing Station Symbol                                   A.5.a, A.5.b, A.5.c,
                                                         B.2.d.(1), B.2.d.(2), and
     Number 8550                                                                     A.5.d, A.5.e, and A.5.f
                                                         B.2.d.(3)

    *Please provide comments by May 9, 2014.




ii │ Report No. DODIG-2014-057 (Project No. D2011-D000FP-0260.001)
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                4800 MARK CENTER DRIVE
                             ALEXANDRIA, VIRGINIA 22350-1500


                                                                                  April 9, 2014

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improvements to Controls Over Cash Are Needed at Army Disbursing Stations
         in Kuwait and Saudi Arabia (Report No. DODIG-2014-057)

We are providing this report for review and comment. Controls at Army disbursing
stations at Camp Arifjan, Kuwait, and Riyadh, Saudi Arabia, were not adequate to
safeguard, account for, document, and report cash. In addition, an Army disbursing
station in Kuwait did not report a loss of funds of about $6.5 million. The issues in this
report are still relevant because the Army has not conducted a formal loss of funds
investigation. We considered management comments on a draft of this report when
preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly.
Management comments received addressed 26 of the 33 recommendations. However,
we did not receive comments from the Commander, 1st Sustainment Command, on
Recommendation B.1.b. Comments from the Deputy Assistant Secretary of the Army
(Financial Operations) and the Director, 336th Theater Financial Management Support
Center, responding for the Disbursing Officer for Disbursing Station Symbol Number 8550,
did not fully address Recommendations B.2.a, B.2.b, B.2.c, B.2.d.(1), B.2.d.(2), and B.2.d.(3).
Therefore, we request additional comments on these recommendations by May 9, 2014.
We considered all other comments to have adequately addressed the recommendations.

Please send a PDF file containing your comments to audfmr@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.




	                                            Lorin T. Venable, CPA
	                                            Assistant Inspector General
	                                            Financial Management and Reporting




                                                                                  Report No. DODIG-2014-057 │ iii
                   Contents
                   Introduction
                   Objectives_________________________________________________________________________________________1
                   Background_______________________________________________________________________________________1
                   Review of Internal Controls_____________________________________________________________________4

                   Finding A. Controls at Army Disbursing Stations in
                   Kuwait and Saudi Arabia Were Not Adequate__________________5
                   Controls at One Army Disbursing Station in Kuwait Were Not Adequate_ __________________6
                   Controls at the Army Disbursing Station in Saudi Arabia Were Not Adequate____________ 11
                   Inadequate Training and Oversight Were Provided to the Disbursing Officers
                   and Deputy Disbursing Officers_______________________________________________________________ 16
                   Effective Controls over Existence and Accountability Documents_________________________ 18
                   Conclusion______________________________________________________________________________________ 19
                   Recommendations, Management Comments, and Our Response__________________________ 20

                   Finding B. Disbursing Officer for Army Disbursing
                   Station 8550 at Camp Arifjan, Kuwait, Did Not
                   Report a Loss of Funds_ ________________________________________________________ 29
                   Closing of Army Disbursing Stations in Iraq_________________________________________________ 29
                   DO for the Disbursing Station in Kuwait Did Not Report a Loss of Funds_________________ 31
                   Recommendations, Management Comments, and Our Response__________________________ 33

                   Appendix_________________________________________________________________________________ 36
                   Scope and Methodology_______________________________________________________________________ 36
                   Use of Computer-Processed Data_____________________________________________________________ 38
                   Prior Coverage_ ________________________________________________________________________________ 38

                   Management Comments_____________________________________________________ 40
                   Deputy Assistant Secretary of the Army (Financial Operations)___________________________ 40
                   U.S. Military Training Mission to Saudi Arabia_______________________________________________ 45
                   336th Theater Financial Management Support Center______________________________________ 48

                   Acronyms and Abbreviations______________________________________________ 52

iv │ Report No. DODIG-2014-057
                                                                                           Introduction




Introduction
Objectives
The overall objective of the audit was to determine whether internal controls at
the Army disbursing stations in Kuwait and Saudi Arabia were effectively designed
and operating adequately to safeguard, account for, document, and report Cash
and Other Monetary Assets (COMA). In addition, we evaluated whether the
U.S. Army Financial Management Command (USAFMCOM) effectively implemented
technical oversight and provided assistance to the Army disbursing station in
Saudi Arabia. See the appendix for a discussion of the scope and methodology and
prior coverage related to the objective.


Background
The Federal Accounting Standards Advisory Board, Statement of Federal Financial
Accounting Standards No. 1, “Accounting for Selected Assets and Liabilities,”
March 30, 1993, defines “cash” as: “(a) coins, paper currency and readily negotiable
instruments, such as money orders, checks, and bank drafts on hand or in transit
for deposit; (b) amounts on demand deposit with banks or other financial
institutions; and (c) foreign currencies.” Office of Management and Budget
Circular A-136, “Financial Reporting Requirements,” September 29, 2010, defines
“other monetary assets” as gold, special drawing rights, and U.S. Reserves in the
International Monetary Fund.

The Army General Fund COMA represented $1.5 billion (83.4 percent) of the DoD
Agency-Wide COMA amount as of September 30, 2012. The COMA balances for the
Army disbursing stations in Kuwait and Saudi Arabia as of September 30, 2012, were:

         •	 $8.6 million at Camp Arifjan, Kuwait (DSSN 8550);

         •	 $0.9 million at Camp Arifjan, Kuwait (DSSN 8748); and

         •	 $18.5 million at Riyadh, Saudi Arabia (DSSN 5588).




                                                                              Report No. DODIG-2014-057 │ 1
Introduction



                  The Deputy Assistant Secretary of the Army for Financial Operations issued a
                  memorandum, “Technical Oversight of Army Finance Operations,” July 10, 2009,1
                  that requires USAFMCOM to provide technical oversight and assistance to finance
                  operations that do not fall under a separate Financial Management Center (FMC). The
                  Army disbursing stations that do not fall under a separate FMC are located in Sinai,
                  Egypt (Disbursing Station Symbol Number [DSSN] 5570); Soto Cano Air Force Base,
                  Comayagua, Honduras (DSSN 5570); and Riyadh, Saudi Arabia (DSSN 5588).                                                  At
                  a minimum, USAFMCOM is expected to conduct an annual staff assistance visit to
                  help train staff, confirm stations have the most current version of finance systems,
                  and validate that appropriate internal controls and regulatory compliance are in place.


                  Disbursing Station
                  DoD      Regulation         7000.14-R,         Financial       Management            Regulation         (DoD      FMR),
                  volume 5, “Disbursing Policy,” states that a disbursing station is an activity, or the
                  organizational unit of an activity, whose principal function consists of the
                  disbursement, collection, and reporting of public funds. The U.S. Treasury assigns
                  each disbursing station a DSSN. The DSSN indicates that the U.S. Treasury has granted
                  authority to the disbursing station to receive and disburse public funds and issue
                  checks.       Each disbursing station will have a disbursing officer (DO) and should
                  have at least one deputy disbursing officer (DDO), who is under direct supervision
                  of the DO. A disbursing station may branch off and have several deputy disbursing
                  offices. These deputy disbursing offices consist of DDOs that report to a DO at a
                  centralized location.


                  Disbursing and Deputy Disbursing Officers
                  DOs are agents of the U.S. Treasury who perform disbursing functions and are
                  accountable to the U.S. Treasury for the cash items in their possession.2 DOs maintain
                  documents representing the cash for which DOs are accountable in their safe or vault.
                  The DO then accounts for the documents on the “Daily Statement of Accountability”
                  (DD Form 2657) and monthly on the “Statement of Accountability” (SF 1219).
                  Furthermore, DOs may provide funds to DDOs, paying agents, and cashiers or
                  authorize DDOs to obtain funds. DDOs report their accountability to the DO on the
                  “Daily Agent Accountability Summary” (DD Form 2665). The DO reports other agents


                  	1	
                      In response to a recommendation in Report No. DODIG-2013-051, “Improvements to Controls Over Cash Are Needed at
                      the Army Disbursing Office at Soto Cano Air Base, Honduras,” March 4, 2013, the Deputy Assistant Secretary of the Army
                      (Financial Operations) reissued this memorandum. The memorandum, “Technical Oversight of Army Finance Operations,”
                      March 14, 2013, requires USAFMCOM to conduct annual operation reviews at the Army disbursing stations in Sinai, Egypt;
                      Soto Cano Air Force Base, Comayagua, Honduras; and Riyadh, Saudi Arabia.
                  	2	
                      The DOs at the Army disbursing stations in Kuwait and Saudi Arabia are under the supervision of the Army. 	




2 │ Report No. DODIG-2014-057
                                                                                                                               Introduction



and cashiers’ accountability on the “Statement of Agent Officer’s Accountability”
(DD Form 1081) as a summary of cash transactions and receipt for cash and vouchers
on hand.


Reporting Structure of the Army’s Disbursing
Stations in Kuwait
The Army disbursing station at Camp Arifjan, Kuwait, (DSSN 8550) Central Funding,
was under the control of the DO for the Army’s 18th FMC.3 This disbursing
station provides funding to other disbursing stations in Southwest Asia. The
DO is accountable for all the funds transferred through the disbursing station.
The DO is also responsible for providing oversight for Army disbursing stations
in Afghanistan, Iraq, and Kuwait. In addition, the DO is responsible for appointing
and overseeing the DDO for this disbursing station. The DDO is responsible for
conducting the day-to-day operations of the disbursing station using Army funds.
The DDO and his staff engage in providing funds to other disbursing operations
in theater in addition to turning in funds to the Federal Reserve Bank.

The other Army disbursing station at Camp Arifjan, Kuwait (DSSN 8748) was under
the control of the DO for the Army’s 130th Financial Management Company (FMCO).4
The DO is accountable for all the funds collected and disbursed at this disbursing
station. The DO is also responsible for appointing and overseeing the DDO for this
disbursing station. The DDO is responsible for overseeing remote disbursing agents
within Kuwait and conducting the day-to-day operations of the disbursing station
using Army funds. The DDO and her staff engage in both accommodation
exchanges5 on a daily basis and also normal operating activity transactions
that require the use of both U.S. and foreign currencies, sometimes concurrently in a
single transaction.

Both DSSNs in Kuwait fall under 1st Theater Sustainment Command’s (TSC)
Area of Responsibility.




	3	
    DSSN 8550 is under the control of the 336th FMC as of June 2013.
	 4	
    DSSN 8748 is under the control of the 27th FMCO as of June 2013.
	5	
    31 U.S.C. 3342 permits DoD to provide accommodation exchanges for the convenience of authorized personnel. An
    accommodation exchange occurs when a DO exchanges U.S. dollars for a U.S. Treasury check or U.S. dollar instrument
    (check cashing). In addition, an accommodation exchange occurs when a DO exchanges U.S. dollars or dollar instruments
    for foreign currency for the convenience of authorized personnel or, where permitted, the exchange of foreign currencies
    for U.S. dollars or dollar instruments.




                                                                                                                  Report No. DODIG-2014-057 │ 3
Introduction



                  Reporting Structure of the Army’s Disbursing Station in
                  Saudi Arabia
                  The Army disbursing station in Riyadh, Saudi Arabia (DSSN 5588) is under the
                  control of the DO for the U.S. Military Training Mission to Saudi Arabia. The DO is
                  accountable for all the funds collected and disbursed at this disbursing station.
                  The DO is also responsible for appointing and overseeing the DDO for this
                  disbursing station.

                  The     DDO   is   responsible   for   overseeing   remote   disbursing   agents   within
                  Saudi Arabia and conducting the day-to-day operations of the disbursing station
                  using Army funds. The DDO and his staff engage in foreign currency transactions
                  and verify the correct exchange rate is being used. In addition, the DDO and his
                  staff engage in both accommodation exchanges on a daily basis and also normal
                  operating activity transactions that require the use of both U.S. and foreign
                  currencies, sometimes concurrently in a single transaction. The DO reports to the
                  Comptroller for U.S. Military Training Mission to Saudi Arabia.


                  Review of Internal Controls
                  DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
                  July 29, 2010, requires DoD organizations to implement a comprehensive
                  system of internal controls that provides reasonable assurance that programs
                  are operating as intended and to evaluate the effectiveness of the controls.          We
                  determined that internal control weaknesses existed at the Kuwait (DSSN 8550) and
                  Saudi Arabia (DSSN 5588) disbursing stations. Specifically, the DOs and DDOs did
                  not follow DoD FMR requirements for safeguarding, accounting for, documenting,
                  and reporting cash at these disbursing stations. Inadequate controls over cash
                  existed because the DOs and DDOs were not properly trained to perform their duties,
                  and USAFMCOM did not provide adequate oversight of the Army disbursing
                  station in Saudi Arabia (DSSN 5588). Additionally, the DO for the Army disbursing
                  station in Kuwait (DSSN 8550) did not follow the DoD FMR and report a loss
                  of funds because she believed the Army would recover these funds in the future.
                  We will provide a copy of the report to the senior officials responsible for internal
                  controls in the Army.




4 │ Report No. DODIG-2014-057
                                                                                                   Finding A




Finding A
Controls at Army Disbursing Stations in Kuwait and
Saudi Arabia Were Not Adequate


Controls at Army disbursing stations in Kuwait (DSSN 8550) and Saudi Arabia
(DSSN 5588) were not adequate to safeguard, account for, document, and
report cash. The DOs and DDOs for these disbursing stations did not follow
the requirements of DoD FMR. Specifically, the DO and DDO for the Kuwait
disbursing station did not:

        •	 segregate confiscated funds from public funds,

        •	 accurately prepare a shipment of funds form,

        •	 timely prepare an agent’s accountability form,

        •	 properly account for cash in transit,

        •	 retain quarterly cash verification reports,

        •	 shield the vault and safe combination dials from observation, or

        •	 obtain a properly marked Statement of Accountability.

The DO for the Army disbursing station in Saudi Arabia did not:

        •	 properly transfer accountability from the predecessor DO to himself,

        •	 properly appoint the DDO,

        •	 timely reconcile the Limited Depository Account (LDA),

        •	 properly report cash with agents on the Daily Statement of Accountability,

        •	 require agents to prepare the Daily Agent Accountability Summary, or

        •	 change the vault combination.

These conditions occurred because the DOs and DDOs in Kuwait and Saudi Arabia
were not aware of these requirements and were not properly trained to perform
these duties. In addition, the Director, USAFMCOM, did not provide adequate
oversight of the Army disbursing station in Saudi Arabia. Specifically, USAFMCOM




                                                                                  Report No. DODIG-2014-057 │ 5
Finding A



                  staff did not conduct any required staff assistance visits (SAVs) to this disbursing
                  station for more than 3 years. The USAFMCOM Director stated that he was not
                  able to conduct SAVs because his team was unable to obtain visas from the
                  Saudi Arabian Embassy.

                  As a result of these inadequate controls over cash, the Army increases its risk of
                  loss because of errors, theft, and fraud.


                  Controls at One Army Disbursing Station in Kuwait
                  Were Not Adequate
                  Controls at one Army disbursing station in Kuwait (DSSN 8550) were not adequate
                  to safeguard, account for, document, and report cash. Specifically, DSSN 8550 did
                  not follow many of the requirements of DoD FMR.


                  Confiscated Funds Not Segregated From Public Funds
                  The DDO stated that he was holding and storing confiscated monies with public
                  funds entrusted to him. The funds, $3,500 in total, were monies that the Military
                  Police had confiscated in Iraq and given to an Army disbursing station for
                  safekeeping and deposit. With the drawdown of troops in Iraq, the funds were
                  then transferred to the Army disbursing station in Kuwait.                DoD FMR, volume 5,
                  chapter 3, “Keeping and Safeguarding Public Funds,” December 2010, states:
                  “Never        merge   public     funds   with   other   funds.”   The     DO   stated   that    she
                  was     unaware       of   the    regulation    requiring   segregating    public   funds      from
                  other funds. By storing the funds together, the DO risks not only using the
                  confiscated funds instead of public funds but also losing the confiscated funds.
                  The Director, USAFMCOM, should revise the training curriculum to include
                  training on segregating public funds from confiscated funds. During our site visit
                  in February 2012, the DO relocated the confiscated funds to a separate safe.
                  Therefore, we are not making a recommendation to segregate the public
                  from the confiscated funds.

                  During our visit, we asked why DSSN 8550 was holding on to these confiscated
                  funds. The DDO stated he did not deposit the funds because he did not know the
                  origination of the funds. The DDO also stated he did not know what to do with
                  the funds. On March  13,  2013, the 1st TSC legal staff determined that these funds
                  were seized from an Iraqi national who had been engaged in terrorist activities




6 │ Report No. DODIG-2014-057
                                                                                                Finding A



and that the funds should be returned to the Iraqi Ministry of Finance for the
Government of Iraq. As of October  16,  2013, the DO was working with a
Department of State representative to deposit the funds into a U.S. Treasury
account. The DO should deposit the confiscated funds in a U.S. Treasury account.


Shipment of Funds Form Was Not Accurately Prepared
The DO did not accurately prepare DD Form 165, “Shipment of Funds,” when
transporting funds to the Bank of America in Germany.            The Bank of America
in Germany is the closest Federal Reserve-affiliated bank.       DoD FMR, volume 5,
chapter 5, “Deposit and Transfer of Public Funds,” December 2010, states
that DD Form 165 must be prepared for any shipment of coin or currency.
Completing the form delegates funds to a courier and designates the funds as
                     “in transit.” Chapter 5 also states that the DO and one responsible
                        witness should personally count the contents of the cash
         Bank              shipment. Not verifying the count by the DO and a witness
      of America            led to less funds being transported than was reported
    identified and
     reported the           as being deposited at Bank of America. In November 2011,
      shortage of           the DDO reported a shipment of funds of $25,141,196.50,
       $322,800.           but he shipped only $24,818,396.50.     The DO stated that
                         the shortage occurred because the DDO miscounted the
                      funds.   When Bank of America identified and reported the
shortage of $322,800, the DO verified the DDO left funds in the vault and
added the $322,800 back to her DD Form 2657, “Daily Statement of Accountability.”
The DDO was reprimanded for his actions. In addition, the DoD FMR requires
that the DO and a witness sign and date Form  165, attesting to its accuracy. The DO
stated that she was unfamiliar with the regulation requiring verifying funds before
shipment and completing the form. Without the funds verification and accurate
preparation of the form, the Army cannot accurately account for the amount
of money being shipped or deposited. After reviewing documentation from
October  2011 through January  2012, we determined that this was the only
occurrence of this form being inaccurately prepared. The Director, USAFMCOM,
should revise the training curriculum to include verifying funds before shipment
and that they have completed DD Form 165, “Shipment of Funds.” In addition, the
DO and a witness should verify the count of funds prior to the shipment of funds.




                                                                               Report No. DODIG-2014-057 │ 7
Finding A



                  Statement of Agent Officer’s Accountability Was Not
                  Timely Prepared
                  The DO did not timely prepare DD Form 1081, “Statement of Agent Officer’s
                  Accountability,” when she delegated funds to her agent for transportation to
                  the Bank of America in Germany for deposit.         DoD FMR, volume 5, chapter 19,
                  “Disbursing Officer Accountability Report,” August 2011, states that DD Form 1081
                  must be prepared to summarize cash transactions between the DO and the DO’s
                  agents when advancing funds to agents. The DO completed the form after she
                  deposited the funds at Bank of America. For example, the DO completed a DD
                  Form 1081 on December 19, 2011, delegating funds to an accountable person
                  even though the DO shipped the funds on December 13, 2011, and deposited into
                  Bank of America on December 16, 2011.

                  The DO stated that she was unsure how to properly advance funds to her agents.
                  By not transferring accountability for funds in transit, the DO remains liable for funds
                  that are no longer in her possession and decreases the likelihood that funds will be
                  recovered if lost or stolen while in transit. The Director, USAFMCOM, should revise
                  the training curriculum to include timely preparation of Statement of Agent Officer’s
                  Accountability. During our site visit in February  2012, the DO stated that she will
                  complete DD  Form  1081 to transfer accountability before the departure of a courier.
                  However, in October  2013, the current DO stated that DD Form  1081 is not being
                  completed to transfer accountability before the departure of a courier. The DO should
                  complete DD Form 1081 to transfer accountability before the departure of a courier.


                  Cash in Transit Was Incorrectly Reported on the Daily
                  Statement of Accountability
                  The DO did not properly account for funds held outside of the vault and in transit to
                  the Bank of America in Germany on DD Form 2657, “Daily Statement of Accountability.”
                  The DO reported a cash shipment on line 6.2A, “Cash on Hand” instead of line 6.7,
                  “Cash in Transit.” DoD FMR, volume 5, chapter 19, “Disbursing Officer Accountability
                  Report,” August  2011, defines “cash on hand” as U.S. currency and coins on hand
                  in the disbursing station safe or vault and with deputies, agents, and cashiers
                  located in the main disbursing station.

                  For example, on December  12,  2011, the DO reported cash on hand of $22,243,765
                  within the disbursing station. On December  13,  2011, the DO authorized and
                  prepared a cash shipment using DD Form 165, “Shipment of Funds,” for $21,811,548.
                  The DDO then physically removed the funds from the vault, transported them to




8 │ Report No. DODIG-2014-057
                                                                                                         Finding A



Germany, and deposited the funds in the Bank of America on December 16, 2011.
However, from December 13, 2011, through December 16, 2011, while the
$21,881,548 was in transit to the Bank of America in Germany, the cash was
still being reported as “cash on hand.” The funds were never reported as “cash in
transit” even though the funds were not physically located within the disbursing
station for 3 days.

The DO stated that she was unsure how to record cash in transit in the
Deployable Disbursing System (DDS)6 from her disbursing station to a non-disbursing
entity. However, she stated that she believed that reporting funds in transit as
“cash on hand” and preparing the shipment of funds form were adequate to account
for funds in transit. We disagree. By reporting funds in transit as “cash on hand,”
the DO overstated her cash on hand. Although her total cash amount was correct,
she was still responsible for funds not in her control. The Director, USAFMCOM,
should revise the training curriculum to include properly accounting for cash in
transit on DD Form 2657 using DDS. The DO should start recording cash in transit
on DD Form 2657 using DDS.


Quarterly Cash Verification Reports Were Not Retained
The DO could not provide any required Quarterly Cash Verification reports dated
before September  22,  2011.            DoD FMR, volume 5, chapter 21, “Disbursing Office
Records,” December  2010, requires that DOs keep original disbursing office records,
associated papers, and supporting documentation for 6 years and 3 months. This
requirement is consistent with guidance in the “National Archives and Records
Administration General Records, Schedule 6.” Although chapter 21 does not
specifically mention Quarterly Cash Verification reports as an original disbursing
office record that should be kept for 6  years and 3  months, chapter 21 does state
that record retention is not limited to the records listed in the chapter. In addition,
chapter 21 states that supporting documentation and any document that affects
the DO’s accountability should be kept for 6 years and 3 months. Quarterly Cash
Verification reports verify the cash, negotiable instruments, and other assets
that compose the DO’s total accountability.                   Any overages or shortages affect
the DO’s accountability.




	 6	
       DDS is a system that is used to maintain a Disbursing Office’s Accountability.




                                                                                        Report No. DODIG-2014-057 │ 9
Finding A



                  The DO could not provide any quarterly cash verification reports dated before
                  September  22, 2011, because previous DOs did not maintain hard copies of
                  Quarterly Cash Verification reports. Additionally, the DO stated that all soft copies
                  of the Quarterly Cash Verification reports were unavailable because of a
                  prior disbursing system crash. Without soft or hard copy documentation, the
                  disbursing station did not have adequate records and will not be able to justify and
                  support prior cash transactions. Thus, we were unable to determine whether the
                  Quarterly Cash Verification reports were ever prepared. The Director, USAFMCOM,
                  should revise the training curriculum to include retaining disbursing office records
                  for 6 years and 3 months. During our site visit in February  2012, the DO stated
                  that DDS maintains the Quarterly Cash Verification reports. However, in October 2013,
                  the DO stated that Quarterly Cash Verification reports were not being maintained in
                  DDS. The DO should start maintaining Quarterly Cash Verification reports in DDS.


                  Vault and Safe Combination Dials Were Not Shielded
                  The DO did not shield the vault and safe combination dials to prevent the possibility
                  of onlookers observing the combination. DoD FMR, volume 5, chapter 3, “Keeping
                  and Safeguarding Public Funds,” August  2011, requires the following: “The dial to
                  the vault, safe, or container be concealed by a shield made of cardboard or
                  other suitable material to limit the possibility of the combination being observed.”
                  The DO stated that she was unaware of the regulation requiring shielding vault
                  and combination dials. Without the required shield, the opportunity exists for
                  others to view the combination and use it to gain access to public funds.
                  The Director, USAFMCOM, should revise the training curriculum to include shielding
                  the vault and safe combinations from onlookers. During our site visit in
                  February  2012, the DO placed a shield over the vault and safe combination
                  dials. In addition, in October  2013, the current DO stated that the vault and
                  safe combination dials are still being shielded. Therefore, we are not making a
                  recommendation to shield the safe and vault combination dials.


                  A Properly Marked Statement of Accountability
                  Was Not Provided
                  The final Statement of Accountability (SF 1219) should have been marked as “FINAL”
                  on the date that the new DO relieved the predecessor DO.         DoD FMR, volume  5,
                  chapter  19, “Disbursing Officer Accountability Reports,” August  2011, states,
                  “A DO being relieved submits a final SF 1219 regardless of the fact that the last
                  day of the accounting period may be other than the last day of the month.        The
                  DO should plainly mark the final SF 1219 ‘FINAL’ in the blank space directly above
                  the name line.”


10 │ Report No. DODIG-2014-057
                                                                                                                           Finding A



The DO stated that she was unaware of the regulation requiring marking the final
SF  1219 “FINAL.” The omission of the marking “FINAL” on the SF 1219 creates
ambiguity of the ending of the predecessor DO’s accountability and the new DO’s
accountability. The Director, USAFMCOM, should revise the training curriculum
to include marking the SF 1219 “Final” on the day the DO relieves the predecessor
DO. The DO should mark the predecessor final SF 1219 “FINAL.” The Director of
the 18th Financial Management Center should review the actions of the DO for
DSSN 8550 regarding the deficiencies identified in this report. On the basis of that
review, the Director should take appropriate management action, including holding
the necessary officials accountable.


Controls at the Army Disbursing Station in Saudi Arabia
Were Not Adequate
Controls at the Army disbursing station in Saudi Arabia (DSSN 5588) were not
adequate to safeguard, account for, document, and report cash. Specifically,
DSSN 5588 did not follow many of the requirements of DoD FMR.


DO Did Not Properly Transfer Accountability from the
Predecessor DO to Himself
                                As part of relieving the predecessor DO, the DO prepared a
                                         letter of transfer that did not include the inventory of
                                           U.S. Treasury check stock.7 DoD FMR, volume  5,
           The DO was
         unaware of the                       chapter  2, “Disbursing Offices, Officers, and Agents,”
         requirement to                       December  2010, requires that the predecessor DO
          inventory the                       inventory the U.S. Treasury checks on hand and prepare
          U.S. Treasury                       a letter transferring the inventory of checks to the
           check stock.
                                            incoming DO.            During our site visit in February  2012,
                                         the DO stated that he was unaware of the requirement,
                                   when relieving the predecessor DO in August  2011, to
inventory the U.S. Treasury check stock. By not conducting the inventory of checks,
the DO increased risk of being accountable for missing or fraudulent checks.
Specifically, a person with access to the check stock could have stolen checks
and created a fraudulent check. The Director, USAFMCOM, should revise the
training        curriculum          to     include       properly        relieving   the   predecessor    DO     by
inventorying and transferring the U.S. Treasury check stock to an incoming


	7	
      “Check stock” is defined as an inventory of blank U.S. Treasury checks.




                                                                                                         Report No. DODIG-2014-057 │ 11
Finding A



                  DO. During our site visit in February  2012, the DO stated that future letters of
                  transfers will include an inventory of U.S. Treasury check stock. In addition,
                  we confirmed that the August  2013 letter of transfer for the new DO included
                  an inventory of U.S. Treasury check stock. Therefore, we are not making a
                  recommendation to include the inventory of check stock in letters of transfer.

                  In addition, the DOs did not verify or make reference to the clearing accounts8
                  in the letter of transfer.                Specifically, the DOs did not verify the clearing account
                  balances,          transfer       subsidiary          clearing       account        transactions            with   backup
                  documentation, or document the status of the clearing accounts. Chapter  2
                  requires the DO to verify and transfer all backup documentation for open balances
                  in the clearing accounts. The DO stated that he was unaware of the existence
                  of the clearing accounts and the requirement to transfer all documentation.
                  By not performing these procedures, the DO takes personal liability for any
                  potential missing funds in the clearing accounts. The Director, USAFMCOM, should
                  revise the training curriculum to include transferring clearing accounts to an
                  incoming DO. During our site visit in January  2012, the DO stated that future
                  letters of transfers will transfer clearing accounts after balances are verified.
                  However, we confirmed that the August  2013 letter of transfer for the current DO
                  did not transfer clearing accounts after balances are verified. The DO should verify
                  clearing account balances on future letters of transfer.


                  DO Did Not Properly Appoint the DDO
                  The DO’s formal letter of appointment for the DDO position did not:

                                •	 state specific duties authorized to be performed by the DDO;

                                •	 include the statement, “I acknowledge that I am strictly liable to the U.S.
                                    for all public funds under my control;”

                                •	 include a statement that the appointee had been counseled regarding
                                    pecuniary liability; or

                                •	 indicate the DDO was given written operating instructions.

                  DoD FMR, volume  5, chapter  2, “Disbursing Offices, Officers, and Agents,”
                  December  2010, states that DOs appoint DDOs by formal letter of appointment.
                  Chapter  2 also states that DDOs must be appointed before they can commence
                  disbursing operations. The letter should state the specific duties authorized

                  	 8	
                         Clearing accounts are temporary holding accounts for funds until they can be designated elsewhere.




12 │ Report No. DODIG-2014-057
                                                                                               Finding A



to be performed by the DDO and include the statement, “I acknowledge that I am
strictly liable to the United States for all public funds under my control.” It should
also include a statement that confirms that the appointee has been counseled with
regard to pecuniary liability and has been given written operating instructions.
The appointee is to acknowledge acceptance of the appointment on the original
and all copies of the letter of appointment. During our site visit in January  2012,
the DO stated that he was unaware of these documentation requirements for
establishing a DDO position. Therefore, the DDO was unable to fully understand
his duties and liabilities because his duties and liabilities were not established in
the appointment letter. The Director, USAFMCOM, should revise the training
curriculum to include documentation requirements for properly appointing a DDO.
During our site visit in January  2012, the DO stated that future letters of
appointment will have all the necessary information. USAFMCOM conducted a SAV
in August  2013, and found that the current DDO letter of appointment was properly
prepared, but was not done timely. USAFMCOM staff stated that future letters
of appointment will be issued on time. Therefore, we are not making a
recommendation regarding letters of appointment.


DO Did Not Timely Reconcile the Limited Depository Account
The DO did not timely reconcile the LDA from October  23,  2011, through
December  20,  2011. DoD FMR volume  5, chapter  14, “Limited Depositary Checking
Accounts,” March  2010, requires that within 30 days after the close of a calendar
month the DO prepare and submit a SF 1149, “Statement of Designated Depositary
Account.” This statement reconciles the DO’s records to the bank statement for the
LDA. The LDA ending balance is reported on line 6.1, “Cash on Deposit in Designated
Depositary,” of the SF  1219.    However, the LDA ending balance reported on the
SF  1219 did not agree with the LDA ending balance reported on the SF  1149 for
October through December 2011. Table  1 identifies the differences between the LDA
ending balances on the SF 1219s and SF 1149s for October through December 2011.

Table 1. Differences Between the LDA Ending Balances on the SF 1219 and the SF 1149
        Month              SF 1219 Balance       SF 1149 Balance        Difference
 October 2011                    $2,442,731.72        $2,442,416.26           $315.46
 November 2011                   $5,506,714.95        $5,506,399.49           $315.46
 December 2011                  $10,010,624.92       $10,009,424.13          $1,200.79




                                                                             Report No. DODIG-2014-057 │ 13
Finding A



                  The DO did not reconcile his records to the bank statement for the LDA until our
                  visit to the disbursing station in January 2012. Reconciling an LDA is necessary to
                  confirm an accurate bank account balance. Not reconciling a LDA can lead to a loss
                  of funds not being detected. For example, not reconciling the LDA at this disbursing
                  station led to a $2.9  million loss of funds that went unnoticed from 2005 until 2008
                  when a DoD Inspector General audit was conducted.9 The Director, USAFMCOM,
                  should revise the training curriculum to include reconciling LDAs within 30 days
                  after month end. USAFMCOM conducted a SAV in August  2013 and confirmed that
                  the DO is properly reconciling the LDA. Therefore, we are not making a
                  recommendation requiring the reconciliation of the LDA.


                  Cash With Agents on the Daily Statement of Accountability
                  Was Not Properly Reported
                  The DO reported cash with agents on Line  6.2, “Cash on Hand,” instead of Line  6.5,
                  “Funds with Agents,” on DD Form 2657, “Daily Statement of Accountability.” DoD FMR,
                  volume  5, chapter  19, “Disbursing Officer Accountability Reports,” August  2011,
                  requires that cash with agents be reported on Line  6.5, “Funds with Agents.”
                  The DO stated that he was unaware of the requirement to separately account for cash
                  not located at the disbursing station. This improper reporting of cash with agents
                  overstates the “Cash on Hand” line and understates the “Funds with Agents” line.
                  The Director, USAFMCOM, should revise the training curriculum to include properly
                  reporting cash with agents on Line 6.5, “Funds with Agents,” on DD  Form  2657.
                  During our site visit in January  2012, the DO took corrective action by moving the
                  funds to the correct line. USAFMCOM conducted a SAV in August  2013 and
                  confirmed the DO was properly reporting funds with agents on Line  6.5 on the
                  DD  Form  2657. Therefore, we are not making a recommendation regarding the
                  proper reporting of cash with agents.


                  Daily Agent Accountability Summaries Were Not Prepared
                  The DO did not require agents to complete DD  Form  2665, “Daily Agent
                  Accountability Summary,” on the day they turned in their business transactions to the
                  DO.       DoD FMR, volume 5, chapter 19, “Disbursing Officer Accountability Reports,”
                  August  2011, states that each deputy, cashier, and agent prepares a daily
                  agent account summary form for each day during which he or she transacts

                  	9	
                        DoD IG Report No. D-2010-034, “Internal Controls Over the Army, General Fund Cash and Other Monetary Assets Held in
                        Southwest Asia,” January 8, 2010.




14 │ Report No. DODIG-2014-057
                                                                                                Finding A



business, recording transactions in U.S. dollar values. During our site visit in
January  2012, the DO stated that he was unaware of these requirements for
the day the agents turn in their business transaction to the DO.          Without this
documentation, the DO is unable to provide a continuous picture of the
transactions affecting the accountability of his agents. Specifically, the DO does
not have knowledge of the amount of cash being held by agents. The Director,
USAFMCOM, should revise the training curriculum to include requiring cashiers
and agents to complete DD  Form  2665 for each day they transact business.
During our site visit in January  2012, the DO stated that he would require
his agents to prepare DD  Form  2665 on the day they turn in their business.
USAFMCOM      conducted     a   SAV   in   August   2013    and   confirmed   that   the
disbursing agents were preparing DD Form 2665 daily. Therefore, we are
not making a recommendation regarding the preparation of DD Form 2665.


Vault Combination Was Not Changed
The DO had not changed the combination to the vault door for more than
2  years. DoD FMR, volume 5, chapter 3, “Keeping and Safeguarding Public Funds,”
August  2011, requires changing the combination for vaults and safes every 6  months.
The DO stated that he did not have directions on how to change the combination to the
vault door and that the vault manufacturer was no longer in business. The DO’s
not changing the combination to the vault door, as required, increased risk that other
individuals who previously possessed the combination could access the funds in
the vault. The Director, USAFMCOM, should revise the training curriculum to include
changing the vault and safe combinations every 6 months. During our site visit in
January  2012, the DO initiated the process to change the combination to the vault.
However, as of August  2013, the combination to the vault has not been changed.
USAFMCOM staff stated that a new safe has been ordered and the vault area is
going to be completely renovated. Therefore, we are making a recommendation
to change the combination to the vault until the vault is replaced. The DO should
change the combination to the vault immediately. The Comptroller of the U.S. Military
Training Mission to Saudi Arabia should review the actions of the DO for DSSN 5588
regarding the deficiencies identified in this report.      On the basis of that review,
the Comptroller should take appropriate management action, including holding the
necessary officials accountable.




                                                                              Report No. DODIG-2014-057 │ 15
Finding A



                  Inadequate Training and Oversight Were Provided to
                  the Disbursing Officers and Deputy Disbursing Officers
                  DOs and DDOs from the Army disbursing stations in Kuwait (DSSN 8550) and
                  Saudi  Arabia (DSSN 5588) stated that they were not aware of the DoD FMR
                  requirements discussed in this report and had not been trained to perform these
                  duties. We reviewed the training course curriculum provided by USAFMCOM and
                  determined that the training did not adequately prepare a DO or DDO to perform
                  the duties identified in the preceding paragraphs. Specifically, the training slides
                  did not include a discussion on:

                          1.	    segregating public funds from other funds, such as confiscated funds, and
                                 returning funds to the Department of Treasury when appropriate;

                          2.	    verifying accurate preparation of DD Form 165, “Shipment of Funds”;

                          3.	    timely preparation of DD Form 1081, “Statement of Agent Officer’s
                                 Accountability”;

                          4.	    properly accounting for “cash in transit” on DD Form 2657, “Daily Statement
                                 of Accountability”;

                          5.	    retaining accountability documents for 6 years and 3 months;

                          6.	    shielding vault and safe combination dials;

                          7.	    properly marking the final SF 1219 “Statement of Accountability”;

                          8.	    properly relieving the predecessor DO by:

                                        °	 inventorying the U.S. Treasury check stock, and

                                        °	 verifying and transferring clearing accounts;

                          9.	    properly appointing DDOs;

                          10.	 reconciling LDAs timely;

                          11.	 properly reporting cash with agents on DD Form 2657, “Daily Statement
                                 of Accountability;

                          12.	 verifying agents prepare DD Form 2665, “Daily Agent Accountability
                                 Summaries”; and

                          13.	 verifying vault combinations are changed.




16 │ Report No. DODIG-2014-057
                                                                                                       Finding A



USAFMCOM staff stated that some of these items were discussed during the
training even though they were not on the training slides.                  However, the DOs
from the three Army disbursing stations (DSSNs 8748, 8550, and 5588) stated
that the training they received was not sufficient for them to perform their disbursing
duties. One DO stated she was unable to attend disbursing training due to
scheduling conflicts with other career courses. In addition, the DDO10 from
DSSN 8748 also stated that the training he received was not sufficient to perform
his disbursing duties.                The DDO also stated that the training he received was so
general that he hoped that he did not make a mistake and become liable for funds.

We reported on lack of training at the Army disbursing office at Soto Cano Air
Base, Honduras. Report No. DODIG-2013-051, “Improvements to Controls Over
Cash Are Needed at the Army Disbursing Office at Soto Cano Air Base, Honduras,”
March 5,  2013, stated that the DDO for the Army disbursing office in Honduras
was not aware of various DoD FMR requirements and was not trained to perform
his duties. The Director, USAFMCOM should revise the training curriculum for DOs
and DDOs to specifically address all the requirements in DoD FMR, volume  5,
“Disbursing Policy,” including the 13 issues that we identified in this finding.
Further, the Director, USAFMCOM, should certify that all incoming DOs and DDOs
attend training before being allowed to collect and disburse funds at Army
disbursing stations.

For more than 3 years, the USAFMCOM staff did not perform required SAVs to the
disbursing station in Saudi Arabia (DSSN 5588) as required by Army policy. On
July  10,  2009, the Deputy Assistant Secretary of the Army (Financial Operations)
issued the memorandum, “Technical Oversight of Army Finance Operations.” The
memorandum stated that USAFMCOM should, at a minimum, conduct annual
SAVs to help train the staff, confirm that the disbursing station is using the most
current version of finance systems, and validate that the appropriate internal
controls are in place. The Director, USAFMCOM, stated that USAFMCOM did
not conduct SAVs to Saudi  Arabia because USAFMCOM was unable to obtain
visas from the Saudi  Arabian Embassy. In October  2012, 9 months after our site
visit, USAFMCOM staff conducted a SAV to the Army disbursing station in
Saudi  Arabia (DSSN 5588). As a result of the lack of training and management
oversight at these disbursing stations, the Army increased its risk of loss
because of errors, theft, and fraud. The Deputy Assistant Secretary of the Army
(Financial Operations) should issue guidance to require the Director, USAFMCOM,

	 10	
        The DDOs for DSSN 8550 and 5588 did not respond to our questions.




                                                                                     Report No. DODIG-2014-057 │ 17
Finding A



                  to conduct SAVs when a new DO or DDO is appointed to the Army disbursing
                  stations in Kuwait or at a minimum, annually. We are not recommending
                  that the Assistant Secretary issue guidance requiring SAVs to Saudi Arabia
                  because he already requires USAFMCOM to conduct annual SAVs in his
                  memorandum, “Technical Oversight of Army Finance Operations,” March  14,  2013.


                  Effective Controls over Existence and
                  Accountability Documents
                  Although we identified numerous instances of noncompliance with disbursing
                  policies in DoD FMR, volume 5, we also determined that DOs and DDOs at the
                  three disbursing stations had effectively implemented many of their responsibilities.
                  Additionally, we agreed with the cash balances reported on each of their
                  DD Form 2657, “Daily Statement of Accountability.”


                  Kuwait (DSSN 8748)
                  We reviewed various controls at the Army disbursing station at Camp Arifjan,
                  Kuwait (DSSN  8748) covering more than 16 topic areas and only identified
                  five minor variances. We observed a cash count on January  31, 2012, that agreed
                  with the $1,008,063 cash balance reported on DD Form  2657.                 In addition, we
                  determined that this Kuwait disbursing station properly operated within its cash
                  holding authority. We also determined that this Kuwait disbursing station
                  had effective controls over the following:

                             •	 semiannual security inspections,

                             •	 preparation of the Security Container Check Sheet (SF 702),

                             •	 preparation and documentation of the Key Control Register,

                             •	 accounting and safeguarding of U.S. Treasury Checks,

                             •	 preparation of the Statement of Agent Officer’s Accountability (DD 1081), and

                             •	 reconciliation of the LDA.

                  Therefore, controls at this Kuwait disbursing station were effective to safeguard,
                  account for, document, and report cash.




18 │ Report No. DODIG-2014-057
                                                                                                   Finding A



Kuwait (DSSN 8550)
At the Army disbursing station at Camp Arifjan, Kuwait (DSSN 8550), we observed a
cash count on January  31,  2012, that agreed with the $2,215,443 cash balance
reported on the DD  Form  2657. In addition, we determined that this Kuwait
disbursing station properly operated within its cash holding authority.          We also
determined that the disbursing station had effective controls over the following:

        •	 semiannual security inspections,

        •	 preparation of the Security Container Check Sheet (SF 702),

        •	 preparation and documentation of the Key Control Register, and

        •	 accounting and safeguarding of U.S. Treasury Checks.

Saudi Arabia (DSSN 5588)
At the Army disbursing station at Riyadh, Saudi Arabia (DSSN 5588), we observed
a cash count on January  20,  2012, that agreed with the $1,633,707 cash balance
reported on the DD Form 2657. In addition, we determined that the Saudi Arabia
disbursing station properly operated within its cash holding authority.                 We
also determined that the Saudi Arabia disbursing station had effective controls
over the following:

        •	 semiannual security inspections,

        •	 functioning alarm and security system for the disbursing station,

        •	 preparation and documentation of the Key Control Register,

        •	 accounting and safeguarding of Treasury Checks,

        •	 preparation    and   computation     of   the   Currency   Exchange      Record
           (DD 2664), and

        •	 preparation of the Statement of Agent Officer’s Accountability (DD 1081).


Conclusion
The controls at the Army disbursing stations in Kuwait (DSSN 8550) and Saudi Arabia
(DSSN 5588) were not adequate to safeguard, account for, document, and report
cash. Specifically, the control deficiencies we identified represent a significant
deficiency in the control environment at these Army disbursing stations. For
example, the DO for DSSN 8550 did not perform the following key controls:




                                                                                 Report No. DODIG-2014-057 │ 19
Finding A



                  segregate confiscated funds from public funds, accurately prepare a shipment of
                  funds form, timely prepare an agent’s accountability form, properly account for
                  funds in transit, and retain quarterly cash verification reports. The DO for DSSN
                  5588 did not perform the following key controls: properly transfer accountability
                  from the predecessor DO to himself, timely reconcile the LDA, properly
                  report cash with agents, and require agents to prepare daily accountability
                  summaries. Therefore, corrective actions should be taken to correct these
                  deficiencies. All the DOs and DDOs from the three disbursing stations reviewed
                  stated that they were not provided adequate training to sufficiently perform
                  their job duties. In addition, the Director, USAFMCOM did not provide adequate
                  oversight of the Army disbursing station in Saudi Arabia. For example, USAFMCOM
                  staff did not perform required SAVs for more than 3  years. These inadequate
                  controls over cash increase the Army’s risk of loss because of errors, theft, and fraud.


                  Recommendations, Management Comments, and
                  Our Response
                  Recommendation A.1
                  We recommend that the Deputy Assistant Secretary of the Army (Financial
                  Operations) issue guidance to require the Director, U.S. Army Financial Management
                  Command, to conduct staff assistance visits to Army disbursing stations in Kuwait
                  when a new Disbursing Officer or Deputy Disbursing Officer is appointed to these
                  disbursing stations or at a minimum, annually.


                  Deputy Assistant Secretary of the Army (Financial Operations) Comments
                  The Deputy Assistant Secretary of the Army (Financial Operations) agreed with
                  our recommendation and plans to issue Army-wide guidance on responsibilities
                  for performing technical oversight and periodic reviews of all active Army finance
                  operations. The Deputy Assistant Secretary stated that the internal control elements
                  of the Financial Management Support Centers have the primary responsibility
                  for this oversight and review. However, when there are no active Financial
                  Management Support Centers, such as in Honduras and Saudi Arabia, U.S. Army
                  Financial Management Command (USAFMCOM) will have primary responsibility.
                  The Deputy Assistant Secretary stated that USAFMCOM publishes and regularly
                  updates a checklist for disbursing operations.




20 │ Report No. DODIG-2014-057
                                                                                                  Finding A



The Deputy Assistant Secretary issued the memorandum, “Oversight and Reviews
of Army Finance and Accounting Operations,” February 26, 2014, which states all
Army finance and accounting operations require appropriate technical oversight
and periodic independent review.        The memorandum states that for finance and
accounting operations outside the contiguous United States under commands
without a Financial Management Support Center, the USAFMCOM performs the
technical oversight and review.         As a general rule, on-site reviews will be
conducted annually; however, the frequency will be based on the risk of fraud or
error and related impacts.         When feasible, personnel should review disbursing
operations in conjunction with the changeover of the accountable disbursing official.


Our Response
The Deputy Assistant Secretary of the Army (Financial Operations) response addressed
all the specifics of the recommendation, and no additional comments are required.


Recommendation A.2
We recommend that the Director, U.S. Army Financial Management Command:

   a.	 Revise the training curriculum for Disbursing Officers and Deputy Disbursing
      Officers to include:

          1.	   segregating public funds from confiscated funds and returning funds
                to the Department of Treasury when appropriate;

          2.	   accurately preparing of DD Form 165, “Shipment of Funds”;

          3.	   timely preparing of DD Form 1081, “Statement of Agent Officer’s
                Accountability”;

          4.	 properly accounting for “cash in transit” on DD Form 2657, “Daily
                Statement of Accountability”;

          5.	   retaining accountability documents for 6 years and 3 months;

          6.	   shielding vault and safe combination dials;

          7.	   obtaining    a   properly   marked   final    SF   1219,   “Statement   of
                Accountability”;

          8.	   properly relieving the predecessor disbursing officer by inventorying
                the U.S. Treasury check stock and verifying and transferring clearing
                accounts;




                                                                                Report No. DODIG-2014-057 │ 21
Finding A



                                 9.	   properly appointing deputy disbursing officers;

                                 10.	 timely reconciling Limited Depository Accounts;

                                 11.	 properly reporting cash with agents on the DD Form 2657, “Daily
                                       Statement of Accountability”;

                                 12.	properly preparing DD Form 2665, “Daily Agent Accountability
                                       Summaries”; and

                                 13.	 changing vault combinations every 6 months.

                  U.S. Army Financial Management Command Comments
                  The Deputy Assistant Secretary of the Army (Financial Operations), responding for
                  the Director, USAFMCOM, agreed with our recommendations and stated that the
                  requirements listed in the recommendations are included within DoD Financial
                  Management Regulations (FMR) and are already addressed in the finance officers
                  training course. In addition, USAFMCOM provides additional training to units using
                  the latest automated finance systems, which are developed and maintained by the
                  Defense Finance and Accounting Service or U.S. Treasury, and thus not within the
                  scope of the normal Army systems and new equipment training processes.
                  Furthermore, USAFMCOM provides training to finance officers assigned to Honduras
                  and Saudi Arabia, before they assume the DO or DDO positions, that includes a
                  majority of the requirements listed in the recommendation. However, the Deputy
                  Assistant Secretary agreed to re-verify that all the recommendations are specifically
                  addressed in the training given by the U.S. Army Financial Management School and
                  USAFMCOM. The Deputy Assistant Secretary provided an estimated completion date
                  of February 2014. The Director, USAFMCOM, stated in March 2014, that his
                  office performed a review of the training curriculum and included the items identified
                  in this audit report.


                  Our Response
                  The Deputy Assistant Secretary of the Army (Financial Operations) response
                  addressed all the specifics of the recommendations, and no additional comments
                  are required.




22 │ Report No. DODIG-2014-057
                                                                                                Finding A



   b.	 Certify that all incoming Disbursing Officers and Deputy Disbursing Officers
      attend formal training before being allowed to collect and disburse funds
      at Army disbursing stations.

U.S. Army Financial Management Command Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding for
the Director, USAFMCOM, partially agreed with our recommendation, stating he
will publish guidance requiring minimum experience or training for an individual
to be assigned to a DO or DDO position. The Deputy Assistant Secretary provided
an estimated completion date of March 2014. The Director, USAFMCOM, stated in
March 2014, that the revised completion date is May 2014.


Our Response
Although the Deputy Assistant Secretary of the Army (Financial Operations)
partially agreed with our recommendation, the actions taken to establish minimum
experience levels and improve DO and DDO training satisfy the intent of the
recommendation. No additional comments are required.


Recommendation A.3
We recommend that the Director of the 18th Financial Management Center
review the actions of the disbursing officer for Disbursing Station Symbol
Number  8550, regarding the deficiencies identified in this report. On the basis of
that review, the Director should take appropriate management action, including
holding the necessary officials accountable.


18th Financial Management Center Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding
for the Director of the 18th Financial Management Center (FMC), stated that the
18th FMC previously redeployed and the individuals in the leadership and disbursing
positions have been reassigned to other units.


Our Response
Even though the Director of the 18th FMC did not review the actions of the
disbursing officer, we agree with the Deputy Assistant Secretary of the Army (Financial
Operations) position that a review should not be performed because the disbursing
officer has been reassigned to another unit. No additional comments are required.




                                                                              Report No. DODIG-2014-057 │ 23
Finding A



                  Recommendation A.4
                  We     recommend     that   the   Comptroller,   U.S.   Military   Training    Mission   to
                  Saudi  Arabia, review the actions of the disbursing officer for Disbursing Station
                  Symbol Number 5588, regarding the deficiencies identified in this report.
                  On the basis of that review, the Comptroller should take appropriate management
                  action, including holding the necessary officials accountable.


                  U.S. Military Training Mission to Saudi Arabia Comments
                  The Comptroller, U.S. Military Training Mission to Saudi Arabia, agreed with our
                  recommendation, stating that he reviewed the practices and procedures of the Finance
                  Office with the new DO following the USAFMCOM annual review of August  2013.
                  The Comptroller acknowledged that the previous disbursing officer did not comply
                  with regulations. However, he stated that the USAFMCOM’s and his review showed
                  that changes have been implemented to address our recommendation and that
                  the current DO is now responsible for ensuring adequate controls are in place.
                  In addition, the Comptroller is in the process of hiring a dedicated quality
                  assurance/internal control manager. In the meantime, a soldier has been appointed
                  to review compliance with DoD FMR.


                  Our Response
                  Even though the Comptroller, U.S. Military Training Mission to Saudi Arabia, did not
                  review the actions of the disbursing officer, he took appropriate management actions.
                  In addition, there is a new disbursing officer for Disbursing Station Symbol
                  Number 5588. No additional comments are required.


                  Recommendation A.5
                  We recommend that the Disbursing Officer for Disbursing Station Symbol
                  Number 8550:

                       a.	 deposit the confiscated funds of $3,500 in a U.S. Treasury account.

                  Disbursing Station Symbol Number 8550 Comments
                  The Director of the 336th Theater Financial Management Support Center (TFMSC),
                  responding for the DO for DSSN 8550, partially agreed with our recommendation,
                  stating that the 336th TFMSC is working with the U.S. Embassy in Kuwait to coordinate
                  returning funds to the Iraqi Embassy in Kuwait. The Director stated that the
                  procedures in the DoD FMR for turning funds over to the State Department are being
                  eliminated.  The Director stated that the funds cannot be deposited into the



24 │ Report No. DODIG-2014-057
                                                                                                                                        Finding A



seized-asset account established for this purpose, because the funds were not
seized from the prior Iraqi regime. The Director stated that in the interim, the funds
will continue to be maintained separately from operating cash and within the
disbursing office’s accountability records. The Director provided an estimated
completion date of July 2014.


Our Response
Although the Director of the 336th TFMSC partially agreed with our recommendation,
the actions taken to return the funds to Iraq through appropriate channels satisfy
the intent of the recommendation. No additional comments are required.

        b.	 verify with a witness cash counts prior to the shipment of funds.

Disbursing Station Symbol Number 8550 Comments
The Director of the 336th TFMSC, responding for the DO for DSSN 8550, agreed with
our recommendation stating that DD Form 165, “Shipment of Funds,” is now
completed and verified before the courier transfer of excess funds to a community
bank in Germany.


Our Response
The Director of the 336th TFMSC response addressed all the specifics of the
recommendation, and no additional comments are required.

        c.	 complete DD Form 1081, “Statement of Agent Officer’s Accountability,” to
            transfer accountability before the departure of a courier.

Disbursing Station Symbol Number 8550 Comments
The Director of the 336th TFMSC, responding for the DO for DSSN 8550, partially
agreed with our recommendation, stating that DD Form 1081, “Statement of Agent
Officer’s Accountability,” is always prepared before the funding of agents, but it is
not used for couriers. The Director stated that the 336th TFMSC accounts for funds
by using DD Form 165, “Shipment of Funds,” DD Form 1907, “Signature and Tally
Record,” and an OTCnet11 deposit ticket.



	11	
       The U.S. Treasury Financial Management Service provides Over the Counter Channel Application (OTCnet) financial services
       to facilitate the prompt electronic processing and reporting of deposits and transaction activity.  OTCnet financial services
       include transactions made at agency offices throughout the U.S. and abroad.




                                                                                                                      Report No. DODIG-2014-057 │ 25
Finding A



                  Our Response
                  Although the Director of the 336th TFMSC, partially agreed with our recommendation,
                  the use of the OTCnet deposit ticket to account for funds provided to a courier
                  satisfies the intent of the recommendation. No additional comments are required.

                       d.	record cash in transit on DD Form 2657, “Daily Statement of Accountability,”
                           using the Deployable Disbursing System.

                  Disbursing Station Symbol Number 8550 Comments
                  The Director of the 336th TFMSC, responding for the DO for DSSN 8550, agreed with
                  our recommendation, stating that funds transferred to a community bank in
                  Germany using couriers are now recorded on line 4.2A, “Deposits Presented or
                  Mailed to Bank,” of DD Form 2657, “Daily Statement of Accountability.”


                  Our Response
                  The Director of the 336th TFMSC response addressed all the specifics of the
                  recommendation, and no additional comments are required.

                       e.	maintain    Quarterly   Cash   Verification   reports    in      the   Deployable
                           Disbursing System.

                  Disbursing Station Symbol Number 8550 Comments
                  The Director of the 336th TFMSC, responding for the DO for DSSN 8550, partially
                  agreed with our recommendation, stating that quarterly cash verifications are kept
                  in the disbursing office Record Accounting Book and that the 336th TFMSC internal
                  control section keeps all cash verifications on a shared drive. The Deployable
                  Disbursing System captures and reports transactions based on U.S. Treasury
                  standards but does not store images of reports not related to that function. These
                  records will be transferred to the incoming DO from the 266th TFMSC to assist in
                  future audits.


                  Our Response
                  Although the Director of the 336th TFMSC partially agreed with our recommendation,
                  recording quarterly cash verifications in the disbursing office Record Accounting
                  Book and the 336th TFMSC internal control section keeping cash verifications on
                  a shared drive satisfies the intent of the recommendation. No additional comments
                  are required.




26 │ Report No. DODIG-2014-057
                                                                                               Finding A



   f.	 mark the predecessor final SF 1219 “FINAL.”

Disbursing Station Symbol Number 8550 Comments
The Director of the 336th TFMSC, responding for the DO for DSSN 8550, agreed
with our recommendation stating that when the 336th TFMSC took over from the
13th TFMSC, the locally printed copy of the DO’s SF 1219 was annotated “FINAL,” and
the 336th TFMSC will follow the same process for the transfer to the 266th TFMSC.


Our Response
The Director of the 336th TFMSC response addressed all the specifics of the
recommendation, and no additional comments are required.


Recommendation A.6
We recommend that the Disbursing Officer for Disbursing Station Symbol Number 5588:

   a.	 verify the clearing account balances on future letters of transfer.

Disbursing Station Symbol Number 5588 Comments
The Comptroller, U.S. Military Training Mission to Saudi Arabia, responding for the
DO for DSSN 5588, agreed with our recommendation. The Comptroller stated that
the current DO has not had a balance in clearing accounts **F3880 or **F3885, the
balances in clearing account **F3875 are cleared on a quarterly basis, and the DO
verifies the balance in this account on the monthly Suspense Account Report.
In addition, the Comptroller stated that the DO will ensure account balances for
clearing accounts are verified by the incoming DO and documented in the transfer
of accountability memorandum. The next transfer of accountability is August 2014.


Our Response
The Comptroller, U.S. Military Training Mission to Saudi Arabia, response addressed
all the specifics of the recommendation, and no additional comments are required.

   b.	 change the combination to the vault immediately.

Disbursing Station Symbol Number 5588 Comments
The Comptroller, U.S. Military Training Mission to Saudi Arabia, responding for the
DO for DSSN 5588, agreed with our recommendation. The Comptroller stated that
because a prior DO lost the combination to the vault and the manufacturer is out of
business and unable to provide instructions, a contract was awarded to replace




                                                                             Report No. DODIG-2014-057 │ 27
Finding A



                  the entire existing vault door. Upon replacement of the vault door, the combination
                  will be immediately changed from the manufacturer settings. The combination will
                  be recorded on an SF 700, placed in a sealed envelope, and stored in the command
                  group safe to prevent another loss of the combination. The combination will be
                  changed every 6 months or when personnel change. The Comptroller provided
                  an estimated completion date of February 2014. The Comptroller stated in March 2014
                  that a new vault door was installed, and the factory combination was changed.


                  Our Response
                  The Comptroller, U.S. Military Training Mission to Saudi Arabia, response addressed
                  all the specifics of the recommendation, and no additional comments are required.




28 │ Report No. DODIG-2014-057
                                                                                                                                       Finding B




Finding B
Disbursing Officer for Army Disbursing Station 8550 at
Camp Arifjan, Kuwait, Did Not Report a Loss of Funds

The DO for Army disbursing station (DSSN 8550) at Camp Arifjan, Kuwait,
did       not      report       a    loss     of     funds      of     about       $6.5     million,       when        another
disbursing station closed and transferred an LDA from the Al-Warka bank in
Baghdad, Iraq, that failed. The DO did not follow the DoD FMR and report a
loss of funds because she believed the Army would recover these funds in the
future. The DO relied on statements made by Al-Warka banking officials that the
Al-Warka bank will repay the Army because $1.1  million had been collected
in calendar year 2012. The risk of losing the remaining balance of $5.4 million
increased because the loss of funds was not officially reported to the appropriate
officials within the Army and Defense Finance and Accounting Service (DFAS).


Closing of Army Disbursing Stations in Iraq
In August  2010, the DO for Army disbursing station (DSSN 5579) at Camp  Liberty,
Iraq, received notice that the Al-Warka bank in Baghdad, Iraq, was having
problems releasing funds for vendor payments using electronic fund transfers.
Specifically, the DO was informed of severe liquidity12 problems and vendor
non-payments at Al-Warka bank.

On September  11,  2010, as part of the Drawdown of Forces in Iraq, the
DO for Army disbursing station (DSSN  8589) at Contingency Operating Base
Speicher, Iraq, closed the disbursing station and transferred its Al-Warka bank
LDA of about $6.0 million to the DO for DSSN 5579. At that time, the DO for
DSSN 5579 had a $3.8 million balance in its LDA at the Al-Warka bank.                                                      As a
result of this transfer, the LDA for DSSN 5579 at the Al-Warka bank had a balance
of about $9.8 million. In November  2010, the Al-Warka bank was placed in
receivership13 by the Central Bank of Iraq.




	12	
        “Liquidity” is the extent to which a bank has cash to meet its immediate and short term cash requirements and the ability
       to convert assets to cash.
	13	
       Receivership is the state of a business that has been placed under the control of a receiver because the
       business is bankrupt.




                                                                                                                     Report No. DODIG-2014-057 │ 29
Finding B



                  By January 2011, the DO for DSSN 5579 was able to make two cash withdrawals,
                  totaling $3.3 million, from its LDA at the Al-Warka bank LDA. The LDA balance was
                  then about $6.5 million. However, despite extensive efforts and repeated requests
                  to withdraw cash for the remainder of 2011, the DO for DSSN 5579 was unable to
                  withdraw any additional cash from the LDA.

                  In December 2011, because of the continued drawdown of forces in Iraq, the DO
                  for DSSN  5579 closed and transferred its Al-Warka bank LDA of about $6.5  million
                  to the DO for DSSN  8550. This marked the closing of the last disbursing station in
                  Iraq. See Diagram 1 for a summary of disbursing stations that closed and transferred
                  LDA balances and cash withdrawals.

                  Diagram 1. Significant LDA Events from September 2010 to Present




                  The DO for DSSN 8550, under the command of the 18th FMC, maintained contact
                  with Al-Warka bank officials and was able to make one additional cash withdrawal of
                  almost $600,000, thereby reducing the Al-Warka bank LDA balance to $5.9 million.
                  In August  2012, the Al-Warka bank made an additional payment of about $500,000,
                  thereby further reducing the balance to about $5.4 million. No other cash has been
                  recovered since August 2012.




30 │ Report No. DODIG-2014-057
                                                                                              Finding B



DO for the Disbursing Station in Kuwait Did Not Report
a Loss of Funds
The DO for Army disbursing station (DSSN 8550) at Camp Arifjan, Kuwait, did
not report a loss of funds of about $6.5 million on her DD  Form 2657, “Daily
Statement of Accountability,” and SF  1219, “Statement of Accountability.” Since the
Al-Warka bank was placed in receivership in November 2010, the Army has been
unable to readily withdraw cash. The DO for DSSN 5579
should have reported a loss of funds when the Al-Warka              Since
bank was placed in receivership.        Since DSSN  5579        the Al-Warka
closed in December  2011 as part of the drawdown,             bank was placed
we are not making a recommendation related                   in receivership in
                                                            November 2010, the
to DSSN  5579. However, the DO for DSSN  8550
                                                           Army has been unable
should have reported a loss of funds when the               to readily withdraw
DO for DSSN  5579 closed and transferred the LDA                    cash.
balance of about $6.5  million to her in December  2011.
The Director for the 18th FMC and the DO knew that the
Al-Warka bank had failed and that the LDA funds were not available for use.
DoD FMR, volume  5, chapter  6, “Physical Losses of Funds, Erroneous Payments,
and Overages,” July  2009, lists a bank failure as an example of a loss of funds.
Specifically, Chapter  6 states that if a DO has funds such as an LDA in a bank, and
the bank closes because of failure, the result is a loss of funds. Chapter  6
also states that, “All physical losses of funds must be investigated” and that “all
physical losses (whether major or minor) are recorded on the DD  Form  2657
by increasing line  7.3 (or 9.3, if predecessor DO), ‘Loss of Funds,’ and decreasing
the appropriate line.” The DO for disbursing station (DSSN  8550) should report
a loss of funds for the amount remaining in the LDA on line  7.3, “Loss of Funds,” or
line  9.3, “Predecessor Disbursing Officer Loss of Funds,” on DD  Form  2657,
“Daily Statement of Accountability.” The DO should also conduct an investigation,
as required by Chapter 6, on the loss of funds, prepare and submit a report to DFAS,
and contact the Department of Treasury and Department of State officials to inform
them of this loss of funds, provide them the investigative report, and request
assistance in recovering this loss of funds. The Commander of the 1st  TSC should
verify that these actions were taken.

The DO stated that she did not follow the DoD FMR and report a loss of funds
because she believed she would recover these funds in the future. The DO relied on
statements made by Al-Warka banking officials that the Al-Warka bank would
repay the Army because $1.1  million had been collected. The DO stated that



                                                                            Report No. DODIG-2014-057 │ 31
Finding B



                  Al-Warka banking officials informed Army officials that repaying U.S. accounts
                  was     Al-Warka’s       top    priority.   However,    had      the    DO    followed       DoD  FMR
                  requirements, an investigation would have occurred, and DFAS Debt Management
                  Policy division would have been notified.

                  Before     the    13th    FMC     assumed      responsibility    for     Army    disbursing     station
                  (DSSN  8550) at Camp Arifjan, Kuwait, in September  2012, officials expressed
                  concerns over the liquidity of the $5.4  million in the Al-Warka bank. Specifically,
                  on August  29,  2012, the DO and 13th  FMC representatives met with representatives
                  from     the     18th  FMC,     336th  FMC,      USAFMCOM,        DFAS       Indianapolis,    and   the
                  Office of the Under Secretary of Defense (Comptroller) to discuss whether the
                  $5.4  million should be reported as a loss of funds.                   The participants agreed that
                  the Al-Warka bank was not a failed bank as described by the DoD FMR. The
                  participants stated that even though the Al-Warka bank was in conservatorship,
                  it was still a financial institution that was repaying its debts.                 We disagree with
                  this assessment because the Al-Warka bank is not repaying its debts. Army
                  disbursing officials have not been able to withdrawal all of its funds from this
                  LDA and $5.4  million remains in this account. Disbursing officials have only
                  been     able     to     withdraw     about     $1.1  million     from       March  2011       through
                  August  2012. As of October  2013, there has not been any more cash withdraws.
                  Chapter  6 states that if a bank closes because of failure, the funds in an LDA
                  become a loss of funds and all loss of funds must be investigated and reported on
                  DD Form 2657.

                  As a result of not reporting a loss of funds, the risk of losing the remaining balance
                  of $5.4  million increased.          Conducting an investigation and reporting a loss of
                  funds to the appropriate officials within DFAS Indianapolis Disbursing/Debt
                  Management Policy Division would have elevated this situation to the appropriate
                  officials for their review and action. In addition, the account balance reported
                  on the Army General Fund financial statements for COMA was overstated
                  by about $5.4  million. This amount represents about 0.36 percent of the Army
                  COMA balance of $1.5  billion as of September  30,  2012. The Army COMA
                  balance will be overstated until the DO for DSSN 8550 reports a loss of
                  funds on her DD  Form  2657 and SF  1219. The Commander of the 1st TSC should
                  review the actions of the Director for the 18th  FMC and the DO for the Army
                  disbursing station in Kuwait (DSSN  8550) for not reporting a loss of funds on
                  DD  Form  2657, “Daily Statement of Accountability,” and the SF  1219, “Statement of
                  Accountability.” On the basis of this review, the Commander should take appropriate
                  management         actions,     including     holding   the     necessary     officials   accountable.



32 │ Report No. DODIG-2014-057
                                                                                                 Finding B



Recommendations, Management Comments, and
Our Response
Recommendation B.1
We recommend that the Commander of the 1st Theater Sustainment Command:

        a.	Review the actions of the Director for the 18th Financial Management
             Center and the Disbursing Officer for Disbursing Station Symbol
             Number 8550 for not reporting a loss of funds on DD Form 2657,
             “Daily Statement of Accountability,” and the SF 1219, “Statement
             of Accountability.” On the basis of that review, take appropriate
             management action, including holding the necessary officials accountable.

1st Theater Sustainment Command Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding
for the Commander of the 1st Theater Sustainment Command (TSC), stated that the
18th Financial Management Center redeployed and the individuals in the leadership
and disbursing positions have been reassigned to other units.


Our Response
Even though the Commander of the 1st Theater Sustainment Command did not
review the actions of the disbursing officer, we agree with the Deputy Assistant
Secretary of the Army (Financial Operations) position that a review should not be
performed.      The 18th Financial Management Center has been redeployed and the
disbursing officer has been reassigned to another unit.         No additional comments
are required.

        b.	 Verify that the Disbursing Officer for Disbursing Station Symbol Number  8550
             implemented all the recommendations in Recommendation  B.2 of this report.

Management Comments Required
Neither the Deputy Assistant Secretary of the Army (Financial Operations) nor the
Commander of the 1st TSC commented on recommendation B.1.b. We request either the
Deputy Assistant Secretary or the Commander provide comments on the final report.




                                                                               Report No. DODIG-2014-057 │ 33
Finding B



                  Recommendation B.2
                  We recommend that the Disbursing Officer for Disbursing Station Symbol
                  Number 8550:

                             a.	report a loss of funds for the amount remaining in the Limited
                                 Depository Account ($5,375,034.62 as of February 26, 2013) on
                                 line 7.3, “Loss of Funds,” or line 9.3, “Predecessor Disbursing Officer
                                 Loss of Funds,” on DD Form 2657, “Daily Statement of Accountability.”

                             b.	 conduct an investigation on the loss of funds.

                             c.	prepare    and    submit     a   report    to   the      Defense   Finance   and
                                 Accounting Service.

                             d.	 contact Department of Treasury and Department of State officials to:

                                     1.	 inform these officials of this loss of funds.

                                     2.	 provide them the investigative report.

                                     3.	 request assistance in recovering this loss of funds.

                  Disbursing Station Symbol Number 8550 Comments
                  Both the Deputy Assistant Secretary of the Army (Financial Operations) and the
                  Director, 336th Theater Financial Management Support Center (TFMSC), responded
                  for the DO for DSSN 8550, and made the same comments. Both partially agreed with
                  our recommendations, stating that filing a loss of funds report is the correct
                  procedure when the funds are deemed lost. However, both the Deputy Assistant
                  Secretary and Director stated that in this case, the funds are not lost, because they
                  are still accounted for, and the bank has not closed.            In addition, the Iraqi High
                  Tribunal Court–Rasafa Appeals Court in November 2013 directed the Central Bank
                  of Iraq to lift and cancel the custodianship of the Al-Warka bank. This was after the
                  Central Bank of Iraq announced that its board had decided to “lift custody
                  [guardianship]” over the Al-Warka bank after a final decision by the Financial
                  Service Court. The Deputy Assistant Secretary and Director also stated that the
                  336th TFMSC has reopened dialogue with the U.S. Embassy in Bagdad to obtain
                  support in recovering the funds from the Al-Warka bank.




34 │ Report No. DODIG-2014-057
                                                                                                                                         Finding B



The Deputy Assistant Secretary and Director stated that an investigation under
Army Regulation 15-614 has been done and that the account has always been
accounted for on the Statement of Accountability but will transfer from current
to predecessor accountability. They stated that U.S. Army Financial Management
Command (USAFMCOM) will revalidate with DFAS that the account with the
Al-Warka bank should not be declared a loss of funds because it is not a failed bank.
The revalidation should be completed in February 2014. The Director, USAFMCOM,
stated in March 2014, that his office revalidated with DFAS that the account should
not be declared a loss of funds. The Director also stated that the Army has not
received any funds from the Al-Warka bank since August 2012.


Our Response
The Deputy Assistant Secretary and Director responses did not address our
recommendations.                  The disbursing officer (DO) needs to report a possible loss of
funds on DD Form 2657, “Daily Statement of Accountability,” because the DO no
longer has access to the cash in the Limited Depository Account (LDA). The Army has
not been able to withdraw all its cash from this LDA since at least November 2010
and has only received one cash payment in August 2012. In addition, there is no
indication the Army will get any funds from the Al-Warka bank any time soon.
Reporting these funds as a loss of funds on DD Form 2657 would properly show that
these funds are not available for use. The DO should then notify the Commanding
Officer of the possible loss of funds so an independent investigation can be
conducted in accordance with the DoD Financial Management Regulations,
volume 5, chapter 6, “Physical Losses of Funds, Erroneous Payments, and Overages,”
July 2009. The DO is still accountable for these funds until the investigation is
completed and a final determination is made on the proper accounting treatment
of these funds. Reopening dialogue with the U.S. Embassy in Bagdad to obtain
support in recovering the funds from the Al-Warka bank is appropriate, but the
Army should also formally ask the Department of the Treasury and Department of
State officials for assistance in accessing its funds in the LDA at the Al-Warka bank.

We request that the DO for DSSN 8550 provide comments on recommendations B.2.a.,
B.2.b., B.2.c., B.2.d.(1), B.2.d.(2), and B.2.d.(3) of the final report.




	 14	
        The Director, however, later confirmed that the Army Regulation 15-6 investigation did not pertain to the status of funds at
        the Al-Warka bank.




                                                                                                                       Report No. DODIG-2014-057 │ 35
Appendix




                  Appendix
                  Scope and Methodology
                  We conducted this performance audit from January 2012 through December 2013 in
                  accordance with generally accepted government auditing standards. Those standards
                  require that we plan and perform the audit to obtain sufficient and appropriate
                  evidence to provide a reasonable basis for our findings and conclusions based on our
                  audit objectives. We believe that the evidence obtained provides a reasonable basis
                  for our findings and conclusions based on our audit objectives. While some of the data
                  in the report is from 2011, the audit team determined that other than the corrective
                  actions discussed in the report, control deficiencies still existed as of October  2013
                  for the Kuwait (8550) disbursing station and August 2013 for the Saudi Arabia (5588)
                  disbursing station.

                  We reviewed applicable guidance from the following:

                             •	 31 United States Code, “Money and Finance,”

                             •	 Code of Federal Regulations,

                             •	 DoD Financial Management Regulation, and

                             •	 Local standard operating procedures.

                  We initially selected three Army disbursing stations to audit.          Specifically, we
                  selected the three disbursing stations that did not have oversight by an
                  Army Financial Management Center. The Army disbursing stations are located in
                  Sinai, Egypt; Soto Cano Air Base, Honduras; and Riyadh, Saudi Arabia.          However,
                  because of security concerns in Egypt, we selected two disbursing stations at
                  Camp Arifjan, Kuwait, to replace the Sinai, Egypt, disbursing station.        A separate
                  report was issued for the Honduras disbursing station. Therefore, this report covers
                  the disbursing stations in Kuwait and Saudi Arabia.

                  We     visited   DFAS,   Indianapolis;   USAFMCOM;     the   Saudi   Arabia   disbursing
                  station (5588); and two disbursing stations in Kuwait (8550 and 8748). We reviewed
                  the internal controls over Army COMA at the Saudi Arabia disbursing station in
                  January 2012 and the Kuwait disbursing stations in February 2012.




36 │ Report No. DODIG-2014-057
                                                                                             Appendix



We observed conditions; interviewed disbursing station staff; verified existence of
forms, reports, and other documents; and reviewed and analyzed documents to
determine whether they were prepared properly, followed applicable criteria, and
supported. Specifically, we reconciled the existence of cash as reported on the
DD  Forms  2665 during October, November, and December  2011. We also confirmed
collection and payment documents to validate controls over cash collections
and disbursements. In addition, we verified the daily and monthly statements
of accountability for completeness, accuracy, and existence of collection and
disbursement documentation. Additionally, we reviewed each disbursing station’s
reconciliation of its LDAs and requested, reviewed, and analyzed the following
disbursing station records for existence, accuracy, completeness, and timeliness for
the months of October, November, and December 2011.

        •	 Alarm/Intrusion Detection Record (AF 2530)

        •	 Appointment/Termination Record (DD Form 577)

        •	 Bank Statements

        •	 Cash Collection Voucher (SF 1131)

        •	 Check Registers

        •	 Currency Exchange Record (DD Form 2664)

        •	 Daily Agent Accountability Summary (DD Form 2665)

        •	 Daily Statement of Accountability (DD Form 2657)

        •	 Deposit Ticket (SF 215)

        •	 Foreign Currency Control Record (DD Form 2663)

        •	 Key Control Register and Inventory (DA 5513)

        •	 Safe Combination Change Ledger

        •	 Security Container Check Sheet (SF 702)

        •	 Specimen Signatures (TFS Form 3023)

        •	 Staff Assistance Visit Records

        •	 Statement of Accountability (SF 1219)

        •	 Statement of Agent Officer’s Accountability (DD Form 1081)




                                                                           Report No. DODIG-2014-057 │ 37
Appendix



                             •	 Statement of Designated Depositary Account (SF 1149)

                             •	 Training Certifications

                             •	 Vault Ledgers

                             •	 Voucher Control Log (DD Form 2659)

                  We reviewed the security programs for each disbursing station and documentation
                  for the closing of disbursing stations in Iraq.

                  We interviewed the DOs from DSSNs  8748, 8550, and 5588, and the DDO from
                  DSSN  8748 regarding the adequacy of the training they received from USAFMCOM
                  prior to working in an Army disbursing office. We also reviewed USAFMCOM training
                  slides to determine whether they discussed the conditions we identified in the report.


                  Use of Computer-Processed Data
                  We used computer-processed data for our audit. Specifically, we obtained SF  1219s,
                  “Statements     of   Accountability,”   and   DD  2665s,      “Daily   Agent   Accountability
                  Summary,” from the Deployable Disbursing System. We assessed the data reliability
                  by comparing SF  1219 and DD  Form  2665 line item amounts to cash held by the
                  DDO and to supporting documentation. We concluded that the data was sufficiently
                  reliable to support the findings and conclusions in this report.


                  Prior Coverage
                  During the last 5 years, the Department of Defense Inspector General (DoD IG),
                  the U.S. Army Audit Agency (AAA), and the Special Inspector General for Iraq
                  Reconstruction  (SIGIR) have issued nine reports discussing Cash and Other Monetary
                  Assets. Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/
                  index.cfm. Unrestricted Army reports can be accessed from .mil and gao.gov domains over
                  the Internet at https://www.aaa.army.mil/. Unrestricted SIGIR reports can be accessed at
                  http://www.sigir.mil/directorates/audits/auditReports.html.


                  DoD IG
                  DoD IG Report No. DODIG-2013-051, “Improvements to Controls Over Cash Are
                  Needed at the Army Disbursing Office at Soto Cano Air Base, Honduras,” March 4, 2013

                  DoD IG Report No. D-2010-034, “Internal Controls Over the Army, General Fund
                  Cash and Other Monetary Assets Held in Southwest Asia,” January 8, 2010




38 │ Report No. DODIG-2014-057
                                                                                         Appendix



DoD IG Report No. D-2009-062, “Internal Controls Over DoD Cash and Other
Monetary Assets,” March 25, 2009

DoD IG Report No. D-2009-003, “Internal Controls Over Army General Fund,
Cash and Other Monetary Assets Held Outside the Continental United States,”
October 9, 2008

DoD IG Report No. D-2008-123, “Internal Controls Over Navy General Fund,
Cash and Other Monetary Assets Held Outside the Continental United States,”
August 26, 2008

DoD IG Report No. D-2008-121, “Internal Controls for Air Force General Fund Cash
and Other Monetary Assets,” August 18, 2008


Army
AAA Report No. A-2011-059-FFM, “Army CONUS Cash and Other Monetary Assets,
Deputy Assistant Secretary of the Army,” February 9, 2011


SIGIR
SIGIR Report No. 10-020, “Development Fund for Iraq: Department of Defense
Needs to Improve Financial and Management Controls,” July 27, 2010

SIGIR Report No. 08-12, “Attestation to Development Fund for Iraq Cash in the
Possession of the Joint Area Support Group-Central,” March 13, 2008




                                                                       Report No. DODIG-2014-057 │ 39
Management Comments




                  Management Comments
                  Deputy Assistant Secretary of the Army
                  (Financial Operations)




40 │ Report No. DODIG-2014-057
                                         Management Comments



Deputy Assistant Secretary of the Army
(Financial Operations) (cont’d)




                                         Report No. DODIG-2014-057 │ 41
Management Comments



                  Deputy Assistant Secretary of the Army
                  (Financial Operations) (cont’d)




42 │ Report No. DODIG-2014-057
                                         Management Comments



Deputy Assistant Secretary of the Army
(Financial Operations) (cont’d)




                                         Report No. DODIG-2014-057 │ 43
Management Comments



                  Deputy Assistant Secretary of the Army
                  (Financial Operations) (cont’d)




44 │ Report No. DODIG-2014-057
                                                 Management Comments



U.S. Military Training Mission to Saudi Arabia




                                                 Report No. DODIG-2014-057 │ 45
Management Comments



                  U.S. Military Training Mission to Saudi Arabia (cont’d)




46 │ Report No. DODIG-2014-057
                                                   Management Comments



U.S. Military Training Mission to Saudi Arabia (cont’d)




                                                   Report No. DODIG-2014-057 │ 47
Management Comments



                  336th Theater Financial Management Support Center




48 │ Report No. DODIG-2014-057
                                                                                                       Management Comments



336th Theater Financial Management Support
Center (cont’d)



                             DoDIG Project No. D2011-D000FP-0260.001

     Improvements to Controls Over Cash Are Needed at Army Disbursing Stations in Kuwait
                                      and Saudi Arabia

                   336th Theater Financial Management Support Center (TFMSC)
                                   Response to Recommendations


     Recommendation A.5: We recommend that the Disbursing Officer for Disbursing Station
     Symbol Number 8550:

        a.   Deposit the confiscated funds of $3,500 in a US. Treasury account.

        b.   Verify with a witness cash counts prior to shipment of funds.

        c. Complete DD Form 1081, “Statement of Agent officer’s Accountability,” to transfer
     accountability before the departure of a courier.

        d. Record cash in transit on DD Form 2657, “Daily Statement of Accountability,” using the
     Deployable Disbursing System.

        e. Maintain Quarterly Cash Verification reports in the Deployable Disbursing System.

        f. Mark the predecessor final SF 1219 “FINAL”.

     Army Response A.5:

          a. Partially Concur. The 336th TFMSC is working with the political/military liaison office
     of the U.S. Embassy in Kuwait to coordinate the return of funds to the Iraqi Embassy located in
     Kuwait. The procedure in the DoDFMR of turning funds over to the State Department is being
     eliminated. Because these funds were not seized from the prior Iraqi regime, they cannot be
     deposited into the seized asset account established for this purpose nor do they belong in the
     account established for monies found on post. In the interim, funds will continue to be
     maintained separate from operating cash in the disbursing office accountability records. ECD:
     July 2014

         b. Concur. The DD Form 165, “Shipment of Funds”, is now completed and verified for
     courier transfer of excess US Dollars to the community bank in Germany. This recommendation
     may be closed. ECD: Completed

         c. Partially concur. DD Form 1081, “Statement of Agent officer’s Accountability”, is
     always prepared prior to funding of agents. It is not used when courier processes and
     documentation, as outlined in the DoDFMR Volume V, are used. The 336th TFMSC Cash




                                                    1




                                                                                                       Report No. DODIG-2014-057 │ 49
Management Comments



                  336th Theater Financial Management Support
                  Center (cont’d)


                                 Management Section account for the funds by doing an OTC.net deposit ticket, DD Form 165
                                 (Shipment of Funds) and DD Form 1907 (Signature and Tally Record) IAW DoDFMR Volume
                                 V, paragraph 050501, Shipment of Public Funds. This recommendation may be closed. ECD:
                                 Completed

                                     d. Concur. Funds being transferred to the Community Bank via courier are now recorded
                                 under line 4.2.A, Deposits Presented or Mailed to Bank, IAW the DoDFMR Volume 5 Chapter
                                 5. This recommendation may be closed. ECD: Completed

                                     e. Partially concur. The record of quarterly cash verifications are kept in the Disbursing
                                 Office Record Accounting Book. In addition, the 336th FMSC Internal Control Section keeps all
                                 cash verifications on a shared drive. While there is no requirement to retain these records for the
                                 period of the statute of limitations, since they do not impact accountability; they will be
                                 transferred to the incoming disbursing officer from the 266th TFMSC to assist in future audits.
                                 Because DDS captures and reports transactions impacting accountability in accordance with US
                                 Treasury standards, it does not store images of reports not directly associated with those
                                 functions. This recommendation may be closed. ECD: Completed

                                     f. Concur. When the 336th TFMSC DO took over the account from the 13th TFMSC, the
                                 locally printed copy of the 13th TFMSC Disbursing Officer’s SF 1219 was annotated “final”.
                                 The 336th TFMSC Cash Management Section will ensure they follow the same process for the
                                 upcoming transfer to the 266th TFMSC. This recommendation may be closed. ECD: Completed


                                 Recommendation B.2: We recommend the Disbursing Officer for Disbursing Station Symbol
                                 Number 8550:

                                     a. Report a loss of funds for the amount remaining in the Limited Depository Account
                                 ($5,375,034.62 as of February 26, 2013) on line 7.3, “Loss of Funds,” or line 9.3, “Predecessor
                                 Disbursing Officer Loss of Funds,” on DD Form 2657, “Daily Statement of Accountability.”

                                    b. Conduct an investigation on the loss of funds.

                                    c. Prepare and submit a report to the Defense Finance and Accounting Service.

                                    d. Contact Department of Treasury and Department of State officials to:

                                        1. Inform these officials of this loss of funds

                                        2. Provide them the investigative report.

                                        3. Request assistance in recovering this loss of funds.

                                 Army Response B.2: Partially concur. The loss of funds report is correct procedure once the
                                 funds are deemed lost. However, in this case, the funds are still accounted for and the bank has
                                 not been closed. USAFMCOM will formally revalidate with DFAS that the account with Al



                                                                                  2




50 │ Report No. DODIG-2014-057
                                                                                                      Management Comments



336th Theater Financial Management Support
Center (cont’d)


     Warka bank should not declared as a loss of funds since it is not a failed bank. On 28
     November, 2013, the Iraqi High Tribunal Court – Rasafa Appeals Court directed the Central
     Bank of Iraq to lift and cancel the custodianship of the Al Warka Bank. This was after the
     Central Bank of Iraq had announced its board has decided to “lift custody [guardianship]” over
     Warka Bank on August 25, 2013, following a final decision made by the Financial Services
     Court on 26th May, 2013. The 336th TFMSC, which replaced the 13th TFMSC and its
     predecessor, the 18th TFMSC, has recently reopened dialogue with the US Embassy in Bagdad to
     gain their support in obtaining the release of funds from the Al Warka bank. The account has
     always been accounted for on the Statement of Accountability. An investigation under Army
     regulation 15-6 was previously done; the 18th TFMSC, and its successors, were following
     guidance provided by USAFMCOM and DFAS Disbursing Policy. ECD: February 2014
      (for revalidation the account should not declared as a loss of funds)




                                                   3




                                                                                                      Report No. DODIG-2014-057 │ 51
Acronyms and Abbreviations




                  Acronyms and Abbreviations
                           COMA Cash and Other Monetary Assets
                             DDO Deputy Disbursing Officer
                             DDS Deployable Disbursing System
                            DFAS Defense Finance and Accounting Service
                                 DO Disbursing Officer
                            DSSN Disbursing Station Symbol Number
                             FMC Financial Management Center
                           FMCO Financial Management Company
                             FMR Financial Management Regulation
                             LDA Limited Depository Account
                                 SAV Staff Assistance Visits
                                 TSC Theater Sustainment Command
                          TFMSC Theater Financial Management Support Center
                    USAFMCOM United States Army Financial Management Command
                           U.S.C. United States Code




52 │ Report No. DODIG-2014-057
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
